Hogan Lovells US LLP
Columbia Square
555 Thirteenth Street, NW
Washington, DC 20004
T +1 202 637 5600
F +1 202 637 5910
www.hoganlovells.com

June 2, 2021
By Electronic Filing
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Board of County Commissioners of Weld County, Colorado v. Exby-Stolley,
No. 20-1357

Dear Mr. Harris:
We represent Petitioner the Board of County Commissioners of Weld County, Colorado in this
matter. Pursuant to Supreme Court Rule 15.5, Petitioner waives the 14-day waiting period and
requests that the petition and brief in opposition be distributed to the Court no later than June 8 for
its consideration at the June 24 Conference. We intend to submit a reply brief no later than June
8, so that the Court will have full briefing well in advance of its Conference.
Sincerely,
/s/ Sean Marotta
Sean Marotta
Counsel for Petitioner
cc:

Jason Wesoky, Counsel for Respondent (by e-mail)

Hogan Lovells US LLP is a limited liability partnership registered in the District of Columbia. “Hogan Lovells” is an international legal practice that includes Hogan Lovells US LLP
and Hogan Lovells International LLP, with offices in: Alicante Amsterdam Baltimore Beijing Birmingham Boston Brussels Colorado Springs Denver Dubai Dusseldorf
Frankfurt Hamburg Hanoi Ho Chi Minh City Hong Kong Houston Johannesburg London Los Angeles Luxembourg Madrid Mexico City Miami Milan Minneapolis Monterrey
Moscow Munich New York Northern Virginia Paris Perth Philadelphia Rome San Francisco São Paulo Shanghai Silicon Valley Singapore Sydney Tokyo Warsaw
Washington, D.C. Associated Offices: Budapest Jakarta Riyadh Shanghai FTZ Ulaanbaatar Zagreb. Business Service Centers: Johannesburg Louisville. Legal Services
Center: Berlin. For more information see www.hoganlovells.com

